NO. _________
IN THE

Supreme Court of the United States
COVERALL NORTH AMERICA, INC.,
Petitioner,
v.
CARLOS RIVAS, IN HIS CAPACITY AS
PRIVATE ATTORNEY GENERAL REPRESENTATIVE,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

NORMAN M. LEON
Counsel of Record
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4000
NANCY NGUYEN SIMS
DLA PIPER LLP (US)
2000 Avenue of the Stars, Suite 400 North Tower
Los Angeles, California 90067-4704
(310) 595-3008
Counsel for Petitioner

EAST\182835266.1

CERTIFICATE OF SERVICE
I, Norman Leon, counsel of record for Petitioner COVERALL NORTH
AMERICA, INC., hereby certify that I caused to be delivered one (1) copy of the
Petition for Writ of Certiorari (“Petition”), Appendix (“Appendix”) and
Certificate of Compliance (“Certificate”) to the Clerk of the Court, through a
commercial overnight courier, at the following address:
OFFICE OF THE CLERK
SUPREME COURT OF THE UNITED STATES
1 First Street, NE
Washington, D.C. 20543
pursuant to Rules 14, 29.2, and 33.2, in addition to the April 15, 2020 Order, in light
of the COVID-19 pandemic.
I further certify that I caused to be served one (1) copy of the Petition, Appendix
and Certificate by electronic mail and First-Class U.S. Mail to the following:
Shannon Liss-Riordan
Adelaide Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, MA 02116
Tel: (617) 994-5800
Fax: (617) 994-5801
eMail: sliss@llrlaw.com
apagano@llrlaw.com
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on August 20, 2021.

Norman M. Leon
Counsel of Record
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4000
Counsel for Petitioner
COVERALL NORTH AMERICA, INC.

EAST\182835266.1

